Audit Report




OIG-12-048
Consultation on Solyndra Loan Guarantee Was Rushed
April 3, 2012




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report

  Results In Brief……………………………………………………………………………….. 1

  Background…………….……………………………………………………………………… 2

  Finding…………………………………………………………………………………………. 5

     Consultation on the Solyndra Loan Guarantee Was Rushed……………………… 5

  Recommendations…………………………………………………………………………... 12

Appendices

  Appendix   1:   Objectives, Scope, and Methodology………………………………….       15
  Appendix   2:   Treasury’s Consultation Timeline……………………………………….       16
  Appendix   3:   Management’s Response…………………………………………………               17
  Appendix   4:   Major Contributors to This Report………………………………………       19
  Appendix   5:   Report Distribution……………………………………………………......          20



Abbreviations

  Act              Energy Policy Act of 2005
  DOE              Department of Energy
  FFB              Federal Financing Bank
  GAO              Government Accountability Office
  LGP              Loan Guarantee Program
  OGFP             Office of Government Financial Policy
  OIG              Office of Inspector General
  OPLR             Office of Policy and Legislative Review
  OMB              Office of Management and Budget
  Treasury         Department of the Treasury




                   Consultation on Solyndra Loan Guarantee Was Rushed
                   (OIG-12-048)                                         Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                            Audit
OIG
The Department of the Treasury
                                                                            Report
Office of Inspector General




                       April 3, 2012

                       Mary Miller
                       Assistant Secretary for Financial Markets
                       Department of the Treasury

                       This report presents the results of our audit of the Department of
                       the Treasury’s (Treasury) role in the $535 million loan guarantee
                       made to Solyndra LLC (Solyndra) in 2009. This loan was 100
                       percent guaranteed by the Department of Energy (DOE) under Title
                       XVII of the Energy Policy Act of 2005 1 (the Act), as amended by
                       the American Recovery and Reinvestment Act of 2009 2 (Recovery
                       Act). The loan was funded by Treasury’s Federal Financing Bank
                       (FFB).

                       We initiated this audit because of the heightened media attention
                       and congressional inquiries surrounding Solyndra’s loan and its
                       subsequent restructuring. The objectives of our audit were to
                       (1) determine Treasury’s responsibilities related to the DOE loan
                       guarantee for Solyndra as established by applicable laws,
                       regulations, policies, procedures, and agreements and (2) assess
                       whether Treasury appropriately carried out those responsibilities.
                       Appendix 1 contains a more detailed description of our audit
                       objectives, scope, and methodology.


Results In Brief
                       Treasury ’s consultative role as it related to the Solyndra loan
                       guarantee is derived from the Act, the Federal Financing Bank Act, 3
                       and 10 CFR §609 (Final Rule implementing Title XVII of the Act).

1
    Pub. L. 109-58 (August 8, 2005)
2
    Pub. L. 111-5 (February 17, 2009)
3
    Pub. L. 93-224 (December 29, 1973)

                       Consultation on Solyndra Loan Guarantee Was Rushed             Page 1
                       (OIG-12-048)
             We found that Treasury did perform a consultation on the terms
             and conditions of the Solyndra loan guarantee. However, whether
             that consultation met the intent of the applicable law and
             regulation is not clear because Treasury’s consultative role was not
             sufficiently defined, the consultation that did occur was rushed,
             and no documentation was retained as to how Treasury’s serious
             concerns with the loan were addressed.

             Going forward, we recommend that the Assistant Secretary for
             Financial Markets (1) work with DOE to establish a definition of
             what Treasury’s consultative role is and what it should include;
             (2) work with DOE to establish a common understanding of what
             would be considered a deviation that would constitute a substantial
             change in the financial terms and conditions of a loan guarantee
             and require Treasury’s consultation; and (3) develop and implement
             written policies and procedures to govern Treasury’s consultative
             process with respect to loan reviews to include guidance on
             composition, role, and responsibilities of consultative teams and
             the production and retention of key consultative documents
             evidencing the deliberations and key conclusions.

             Treasury generally agreed with our recommendations and stated it
             will make a best effort to work DOE to define Treasury’s
             consultative role prior to conditional commitment and identify
             circumstances under which DOE should consult Treasury in the
             context of any deviations to the financial terms of the loan
             guarantee. Management also generally agreed with our
             recommendation to develop and implement written policies and
             procedures to govern Treasury’s consultative process. We have
             summarized and evaluated Treasury’s response in the
             recommendation section of this report. Management’s response is
             provided in Appendix 3.


Background
             Solyndra, a manufacturer of solar panels, received a $535 million
             loan guarantee under DOE’s Loan Guarantee Program (LGP) in
             September 2009 that was financed through FFB. This was DOE’s
             first loan guarantee under Title XVII of the Act, as amended by
             section 1705 of the Recovery Act. The Act authorized the
             Secretary of DOE to make loan guarantees to companies investing


             Consultation on Solyndra Loan Guarantee Was Rushed             Page 2
             (OIG-12-048)
in either innovative clean technologies or commercial-scale
renewable energy. Section 1702(a) of the Act states

       “in general…, the Secretary shall make guarantees
       under this or any other Act for projects on such terms
       and conditions as the Secretary determines, after
       consultation with the Secretary of the Treasury…”
       (emphasis added)

The regulation implementing Title XVII of the Act, 10 CFR §609,
requires DOE to consult with the Secretary of the Treasury on the
terms and conditions of the potential loan guarantee concurrent
(emphasis added) with its review process, and before granting any
deviation that would constitute a substantial change in the financial
terms of the loan guarantee. In addition, the regulation requires
that all 100 percent guaranteed loans be funded by FFB.

FFB is a government corporation, created by Congress in 1973,
under the general supervision of the Secretary of the Treasury. FFB
was established to (1) coordinate federal and federally assisted
borrowing programs with the overall economic and fiscal policies of
the Government, (2) reduce costs of borrowing from the public,
and (3) ensure borrowings are financed in a manner least disruptive
of private financial markets and institutions. FFB is authorized to
purchase any obligation issued, sold, or guaranteed by a federal
agency to ensure such obligations are financed efficiently.

The Office of Management and Budget (OMB) provided agencies
with additional guidance in Circular No. A-129 Revised – Policies
for Federal Credit Programs and Non-Tax Receivables (OMB A-
129). This guidance prescribes policies and procedures for Federal
credit programs and sets standards for extending credit, managing
lenders participating in Government guaranteed loan programs,
servicing credit and non-tax receivables, and collecting delinquent
debt. This guidance applies to all federal credit programs which
include loan guarantee programs. According to OMB A-129, a
federal agency cannot issue, sell, or guarantee an obligation that is
ordinarily financed in the investment securities markets unless the
obligation or loan is funded by FFB or another federal agency. In
exceptional circumstances, the Secretary of the Treasury has the
authority to waive this requirement if the obligations: (1) are not
suitable for investment for the FFB because of the risks entailed; or

Consultation on Solyndra Loan Guarantee Was Rushed              Page 3
(OIG-12-048)
(2) are, or will be, financed in a manner that is least disruptive of
private finance markets and institution; or (3) are, or will be, based
on the Secretary’s consultation with OMB and the guaranteeing
agency, financed in a manner that will best meet the goals of the
program.

As of December 2011, DOE guaranteed, after consulting with
Treasury, 28 projects totaling $16.1 billion under the LGP. In
accordance with 10 CFR §609.10, FFB is required to fund loans
that are 100 percent guaranteed by DOE. FFB does not fund partial
guarantees. Of the loans guaranteed, FFB issued 23 note purchase
agreements that commit the FFB to the maximum principal amount
of $10.1 billion. Because loans under DOE’s LGP are guaranteed,
FFB has not, and will not incur any direct credit-related losses
associated with the program. All credit losses under the LGP are
the responsibility of DOE, and are ultimately borne by the American
taxpayers. Since receiving its initial loan in September 2009,
Solyndra’s loan was restructured in February 2011, and more
recently, Solyndra filed for Chapter 11 bankruptcy in September
2011. Prior to filing for bankruptcy, approximately $528 million of
the $535 million in guaranteed loan funds were disbursed. In the
case of Solyndra’s default, DOE will make payments to FFB under
the guarantee and may exercise remedies against Solyndra. As of
December 2011, DOE made $16.2 million of interest payments to
FFB. In February 2011 the Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations staff initiated an
investigation of Solyndra focusing on Solyndra’s loan guarantee
and DOE’s decision to restructure and subordinate a portion of its
obligation.

As of the end of our fieldwork, Treasury was not aware of any
credit losses to DOE under LGP other than Solyndra. However,
Beacon Power, which received a $43 million loan guarantee, also
funded by FFB, in August 2010, declared bankruptcy in October
2011.




Consultation on Solyndra Loan Guarantee Was Rushed               Page 4
(OIG-12-048)
Finding
                        Consultation on the Solyndra Loan Guarantee Was Rushed

                        Under the Act, the Secretary of DOE is authorized to make loan
                        guarantees on terms and conditions that are determined by DOE,
                        after consultation with Treasury. The Act does not define
                        Treasury’s consultative role with regard to DOE’s loan guarantee
                        program; however, the regulations implementing the Act required
                        that DOE consult with Treasury concurrent (emphasis added) with
                        its review process. 4

                        In the case of Solyndra, Treasury was not consulted on the terms
                        and conditions of the loan transaction prior to or concurrent with
                        DOE’s review process. Furthermore, the consultation that did occur
                        was rushed.

                        For the LGP, DOE established the Credit Committee and the Credit
                        Review Board (CRB) to review loan proposals. Officials on the
                        Credit Committee review and approve applicants’ creditworthiness
                        and technical merits which are summarized in the credit paper, and
                        the terms and conditions of the loan guarantee specified in the
                        Term Sheet. Treasury was not consulted during the Credit
                        Committee’s review of Solyndra.

                        Upon the Credit Committee’s approval, senior officials on the CRB
                        which include DOE’s Deputy Secretary, General Counsel, Chief
                        Financial Officer, and other senior DOE advisors, make a final
                        determination on which projects are to be forwarded to the
                        Secretary of DOE for signature. In the case of Solyndra, two FFB
                        staff attended a “dry run” presentation of the project on March 16,
                        2009, before DOE staff made the presentation to the CRB.
                        Following the presentation, DOE requested documentation from the
                        FFB attendees stating that Treasury was consulted. However, the
                        FFB staff who participated communicated that others at Treasury

4
 10 CFR 609.7, Programmatic, technical and financial evaluation of Applications (a) In reviewing
completed applications, and in prioritizing and selecting those to whom a Term Sheet should be offered,
DOE will apply the criteria set forth in the Act, the applicable solicitation, and this part. Applications will
be considered in a competitive process, that is, each application will be evaluated against other
applications responsive to the solicitation. Greater weight will be given to applications that rely upon a
smaller guarantee percentage, all else being equal. Concurrent with its review process, DOE will consult
with the Secretary of the Treasury regarding the terms and conditions of the potential loan guarantee.

                        Consultation on Solyndra Loan Guarantee Was Rushed                              Page 5
                        (OIG-12-048)
would have to be consulted for that purpose. It was not until after
Treasury was notified by OMB that DOE was ready to sign-off on
the Term Sheet, making a conditional commitment to Solyndra,
that consultation on the part of Treasury occurred.

On March 17, 2009, OMB informed Treasury’s Office of
Government Financial Policy (OGFP) that DOE would be issuing a
press release on Solyndra. It was OMB’s understanding that the
CRB approved the project and that the Secretary of DOE could sign
the Term Sheet at any moment. OMB strongly urged Treasury to
contact the DOE Office of the Secretary if Treasury wanted to
weigh in on Solyndra’s terms and conditions. DOE later confirmed
to Treasury that the Term Sheet was approved by the CRB on
March 17, 2009.

An OGFP official expressed concerns to OMB in an e-mail regarding
DOE’s review process as it related to the requirement that Treasury
be consulted with on the terms and conditions of any guarantee
before the guarantee was extended. In that email, it was also
communicated that when the regulations were drafted, OGFP made
it clear that Treasury wanted to be involved in the development of
the terms and conditions and not be brought in at the end when
the terms of the deal had already been negotiated.

On March 18, 2009, Treasury received a draft press release from
DOE announcing Solyndra’s conditional commitment planned for
issuance later that afternoon. The draft press release stated that
“Secretary Chu offered the loan guarantee by signing a ’conditional
commitment’ today, following approval yesterday by the
Department of Energy’s Credit Review Board.” In response, a
Treasury official contacted DOE to request additional time to
review and delay the DOE Secretary’s signing of the Term Sheet
and the press release. DOE originally agreed to extend Treasury’s
review time to noon on March 20, 2009. However, Treasury then
agreed with a DOE request to expedite the review to March 19,
2009, so that the press release could be issued on the morning of
March 20, 2009.

Treasury provided comments to DOE, during a conference call on
March 19, 2009, regarding Solyndra’s terms and conditions noting
several concerns that included (1) the amount of equity in the
project (i.e., 73/27 debt to equity ratio instead of 65/35), (2) the

Consultation on Solyndra Loan Guarantee Was Rushed             Page 6
(OIG-12-048)
preference for a partial guarantee versus 100 percent guarantee,
and (3) DOE’s claims on Solyndra’s intellectual property in the
event of default. We also obtained an internal Treasury e-mail
where such aspects of the deal were discussed. The e-mail
specifically noted that

       “…this should have been 65% debt and 35% equity
       instead of 73% debt and 27% equity… If this had
       been an 80% guaranteed loan, then the implicit
       guaranteed loan would have been 64% rather than
       73%. DOE says that their hands are tied on this
       issue… They are under pressure to complete a deal.”

Treasury officials told us that all comments raised were addressed
by DOE. After the conference call, Treasury sent an e-mail to DOE
agreeing to the issuance of the press release and signing of the
Term Sheet. However, following the conference call with DOE,
another internal Treasury e-mail noted that

       “we pressed on certain issues such as why we aren’t
       providing only a partial guarantee and covering a
       smaller percentage of the eligible project costs, but
       the train really has left the station on this deal.”

When asked, Treasury officials told us that enough time was
granted to perform a sufficient review of Solyndra’s terms and
conditions. However, Treasury’s e-mail correspondence at the time
of Solyndra’s consultation leave questions as to whether
Treasury’s concerns were fully addressed. Appendix 2 provides a
timeline of the consultative process on the Solyndra loan.

We believe that Treasury was rushed in its consultative review of
the Solyndra loan guarantee as a result of the following:

   •   There was no common understanding/definition of what
       constituted Treasury’s consultative role within Treasury or
       between Treasury and DOE;

   •   There were no policies and procedures governing Treasury’s
       consultative process with respect to loan reviews to include
       guidance on the composition, role, and responsibilities of
       consultative review teams and the production and retention

Consultation on Solyndra Loan Guarantee Was Rushed             Page 7
(OIG-12-048)
       of key consultative review documents evidencing the
       deliberation, resolution of concerns, and key decisions.

No Common Understanding/Definition of What Constituted
Treasury’s Consultative Role

Neither the Act nor 10 CFR §609 defines or explains
“consultation” or “consult” on the part of Treasury. According to a
Treasury official who was on the team that drafted the regulation,
it was assumed, at the time, that Treasury would be involved in
the development of the terms and conditions and not be brought in
at the end when the terms of the deal had already been negotiated.

In 2006, DOE issued the first solicitation under the LGP and
approved the first loan guarantee in 2009—Solyndra. At the point
of the conditional commitment of this first loan guarantee, Treasury
and DOE were unclear on how to execute the consultation
requirement. When questioned as to Treasury’s role under the Act,
Treasury officials provided an array of generalities but no clear
delineation of Treasury’s consultative role with DOE. In our opinion
the lack of clarity on what Treasury’s consultative role meant
between Treasury and DOE resulted in Treasury having a pressured
and compressed review period for Solyndra. After numerous
interviews with Treasury officials and evaluation of available
documentation, it still remains unclear as to how Treasury
delineates a consultation with regard to DOE’s LGP. As the loan
guarantee program proceeded, DOE, Treasury, OMB, and the
National Economic Council agreed on a working understanding as
to the timing of interagency reviews for energy projects which was
documented in an April 2011 memorandum. This memorandum
outlines a 21 day review process recognizing the need for
flexibility. So while the memorandum establishes timeframes for
interagency reviews, it neither clarifies Treasury’s consultation nor
its coordination with DOE.

In February 2011, Solyndra’s loan guarantee was restructured with
a subordination clause to Solyndra investors. Treasury was not
consulted on the restructure and it was uncertain if Treasury
should have been consulted in accordance with 10 CFR §609.18
dealing with deviations from the financial terms of a loan
guarantee. According to 10 CFR §609.18, “DOE will consult with
OMB and the Secretary of the Treasury before DOE grants any

Consultation on Solyndra Loan Guarantee Was Rushed                Page 8
(OIG-12-048)
deviations that would constitute a substantial change in the
financial terms of the Loan Guarantee Agreement and related
documents.” However, we were told by Treasury officials that it
was unclear if Solyndra’s restructure was considered a deviation.
This is another matter that requires a common understanding.
Specifically, the common understanding should provide for what
would be considered a deviation that would constitute a substantial
change in the financial terms and conditions of a loan guarantee
and require Treasury’s consultation.

No Policies and Procedures Govern Treasury’s Consultation

Treasury did not have policies and procedures in place for
performing its consultation under the Act. In accordance with the
Act, DOE is required to consult Treasury on the terms and
conditions of all LGP applicants and the consult should reflect
Treasury’s perspective on the amount to be guaranteed, reasonable
prospect of repayment, interest rate, remedies for default, fees
charged to the applicant, and the full faith and credit pledge of the
United States. According to Treasury staff, OMB A-129 is used as
guidance to perform the consultation. However, the guidance lacks
sufficient instructions on how Treasury is to execute its
consultative role, form a consultative team, evaluate various
aspects of terms and conditions, and document results and key
conclusions evidencing its consultative review.

Treasury’s Office of Policy and Legislative Review (OPLR) was
assigned to coordinate Treasury’s consultation on DOE’s LGP for
Solyndra. Subsequent to the assignment, the Director of OPLR
contacted 11 individuals, asking them to review Solyndra
documents. In the end, only 5 individuals reviewed the documents
and provided comments. Strangely, not everyone we spoke with
was aware of being officially part of the consultative team. Based
on our interviews with OPLR officials and review of related
correspondence, there were inconsistencies in how members of the
review team interpreted their roles. As a result, the consultation on
Solyndra may not have been comprehensive or consistent since
clear guidance was not provided.

As discussed above, based on an expedited review request from
DOE so that a press release could be issued, OPLR completed its
review in about 1 day. However, Treasury officials told us that this

Consultation on Solyndra Loan Guarantee Was Rushed              Page 9
(OIG-12-048)
                        time period was sufficient in the case of its review of the Solyndra
                        loan guarantee.

                        The Office of Government Financial Policy, which oversees OPLR
                        and FFB, has overall responsibility for the Treasury’s consultative
                        reviews and currently chooses among the following offices to
                        participate in the consultative review process: OPLR, FFB, the
                        Office of Debt Management, the Office of International Affairs, and
                        Capital Markets. However, to date it remains unclear as to how
                        Treasury determines who (what disciplines) are to be assigned to
                        consultative teams (composition of the teams). Furthermore, we
                        found that even if someone is identified to be part of the team,
                        they only participate if available. Without policies and procedures
                        laying out who should lead the consultative review, as well as the
                        composition of consultative review teams, based on knowledge
                        and experience rather than availability, and guidance that provides
                        explanations and expectations of team members’ roles and
                        responsibilities, Treasury risks inconsistent, incomplete, and
                        otherwise potentially flawed reviews.

                        Treasury Consultation on Solyndra Was Not Contemporaneously
                        Documented

                        The Government Accountability Office (GAO) established standards
                        for internal control in the federal government. In its guidance, GAO
                        provides that internal control and all transactions and other
                        significant events need to be clearly documented, and the
                        documentation be readily available for examination. The
                        requirement for documentation should appear in management
                        directives, administrative policies, or operating manuals and may be
                        in paper or electronic form. All documentation and records should
                        be properly managed and maintained. 5 Treasury established its own
                        documentation requirements in Treasury Directive Publication
                        80-05, which states that all program officials shall create and
                        maintain adequate and proper documentation of the program for
                        which they are responsible. This means a record of the conduct of
                        government business that is complete and accurate to the extent
                        required to document the organization, functions, policies,
                        decisions, procedures, and essential transactions of their office and


5
    GAO/AIMD-00-21.3.1, “Standards for Internal Control in the Federal Government” (November 1999)

                        Consultation on Solyndra Loan Guarantee Was Rushed                  Page 10
                        (OIG-12-048)
                        to protect the legal and financial interest of the government and of
                        persons directly affected by the activities of their office. 6

                        Ultimately, Treasury did perform a consultation on the Solyndra
                        loan but was unable to provide sufficient documentation to support
                        its review. As discussed above, the Solyndra loan consultative
                        review by Treasury was completed in about 1 day. However,
                        Treasury officials told us that they had sufficient time to review the
                        Solyndra documents, and all pertinent questions and concerns were
                        adequately addressed. To support its review, Treasury officials
                        provided e-mails and a brief memorandum summarizing a
                        conference call with DOE dated March 2010. However, that
                        memorandum was finalized 1 year after the conference call took
                        place. Furthermore, the summary memorandum and e-mails
                        provided show a number of concerns raised by Treasury with
                        regard to the Solyndra loan. For example, some of the concerns
                        that Treasury expressed to DOE include the amount of equity
                        contribution, a challenge to expected market penetration, interest
                        rate language, total percentage coverage of the guarantee and
                        eligible project costs, and the assumption that the decision on the
                        terms and conditions was already determined prior to the
                        consultation. So, while Treasury officials told us that they had
                        sufficient time to review the Solyndra documents, and all pertinent
                        questions and concerns were adequately addressed, they
                        maintained no documentation of DOE’s responses to the questions
                        and concerns raised.

                        In conclusion, we found that Treasury consulted on the terms and
                        conditions of the Solyndra loan guarantee. However, whether that
                        consultation met the intent of the applicable law and regulation is
                        not clear because Treasury’s consultative role was not sufficiently
                        defined, the consultation that did occur was rushed, and no
                        documentation was retained as to how Treasury’s serious concerns
                        with the loan were addressed.




6
    Treasury Directive Publication 80-05, “Records and Information Management Manual” (June 2002)

                        Consultation on Solyndra Loan Guarantee Was Rushed                   Page 11
                        (OIG-12-048)
Recommendations
           We recommend that the Assistant Secretary for Financial Markets
           do the following:

           1. Work with DOE to establish a definition of what Treasury’s
              consultative role is and what it should include;

              Management Response

              Treasury management generally agreed with our
              recommendation and stated that a best effort will be made to
              work with DOE to define Treasury’s consultative role prior to
              conditional commitment.

              OIG Comment

              Management’s response meets the intent of our
              recommendation.

           2. Work with DOE to establish a common understanding of what
              would be considered a deviation that would constitute a
              substantial change in the financial terms and conditions of a
              loan guarantee and require Treasury’s consultation.

              Management Response

              Treasury management generally agreed with our
              recommendation and stated that a best effort will be made to
              work with DOE to identify the circumstances under which DOE
              should consult Treasury in the context of any deviations to the
              financial terms of the loan guarantee.

              OIG Comment

              Management’s response meets the intent of our
              recommendation.

           3. Develop and implement written policies and procedures to
              govern Treasury’s consultative process with respect to loan
              reviews to include guidance on composition, role, and
              responsibilities of consultative teams and the production and

           Consultation on Solyndra Loan Guarantee Was Rushed           Page 12
           (OIG-12-048)
   retention of key consultative documents evidencing the
   deliberations and key conclusions.

   Management Response

   Treasury management generally agreed with our
   recommendation for the development of written policies and
   procedures to govern Treasury’s consultative process regarding
   the terms and conditions of future DOE LGP loan guarantees.
   However, management did not agree with the specific
   statement in our report that Treasury’s consultation should
   broadly reflect its “…perspective on the amount to be
   guaranteed, reasonable prospect of repayment, interest rate,
   remedies for default, fees charged to the applicant, and the full
   faith and credit pledge of the United States.” Management
   believes that some of these matters relate to an applicant’s
   creditworthiness which is an issue that Congress placed solely
   within DOE’s purview under the Act and that Treasury’s input is
   limited to the interest rate and other terms and conditions of the
   potential loan guarantee.

   OIG Comment

   Management’s response meets the intent of our
   recommendation. We do note that, as provided in section 1702
   of the Act, the Secretary of the Treasury provides consultation
   on a number of terms and conditions, such as the specific
   appropriation or contribution, amount, repayment, interest rate,
   term, defaults, fees, records and audits, and full faith and
   credit.

   Management’s response is provided in Appendix 3.




Consultation on Solyndra Loan Guarantee Was Rushed            Page 13
(OIG-12-048)
                             ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Director, at
(202) 927-5784. See Appendix 4 for major contributors to this
report.



/s/
Marla A. Freedman
Assistant Inspector General for Audit




Consultation on Solyndra Loan Guarantee Was Rushed          Page 14
(OIG-12-048)
Appendix 1
Objectives, Scope, and Methodology




In October 2011, we initiated an audit of Treasury’s role as it
pertained to the $535 million loan guarantee made to Solyndra
under DOE’s LGP in September 2009. Solyndra subsequently
declared bankruptcy in September 2011. The objectives of our
audit were to (1) determine Treasury’s responsibilities related to
the DOE loan guarantee for Solyndra as established by applicable
laws, regulations, policies, procedures and agreements and
(2) assess whether Treasury appropriately carried out those
responsibilities.

To address these objectives, we:

•   researched applicable law, regulations, and Treasury
    requirements;

•   interviewed key Treasury officials and staff;

•   reviewed available documentation supporting Treasury’s
    consultative activities, consisting of Solyndra’s Term Sheet,
    credit paper, loan documents and other related correspondence
    including email correspondence; and

•   performed internal control testing at FFB on the administration
    of the Solyndra loan to include processing of advance loan
    requests.

We conducted our fieldwork at Departmental Offices and the
Federal Financing Bank in Washington, D.C., between October
2011 and February 2012.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Consultation on Solyndra Loan Guarantee Was Rushed             Page 15
(OIG-12-048)
Appendix 2
Treasury’s Consultation Timeline




Consultation on Solyndra Loan Guarantee Was Rushed   Page 16
(OIG-12-048)
Appendix 3
Management’s Response




Consultation on Solyndra Loan Guarantee Was Rushed   Page 17
(OIG-12-048)
Appendix 3
Management’s Response




Consultation on Solyndra Loan Guarantee Was Rushed   Page 18
(OIG-12-048)
Appendix 4
Major Contributors To This Report




Donna Joseph, Audit Director
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Nicholas Slonka, Auditor
Alicia Bruce, Referencer




Consultation on Solyndra Loan Guarantee Was Rushed   Page 19
(OIG-12-048)
Appendix 5
Report Distribution




Department of the Treasury

Deputy Secretary
General Counsel
Assistant Secretary for Financial Markets
Deputy Assistant Secretary for Financial Markets
Assistant Secretary for Management of the Treasury,
   Chief Financial Officer, and Chief Performance Officer
Fiscal Assistant Secretary
Director, Office of Policy and Legislative Review
Director and Chief Financial Officer, Federal Financing Bank
Deputy Chief Financial Officer

Office of Management and Budget

OIG Budget Examiner




Consultation on Solyndra Loan Guarantee Was Rushed             Page 20
(OIG-12-048)
THIS PAGE INTENTIONALLY LEFT BLANK
